   February 2, 2005




Acquisition
Implementation of Interoperability
and Information Assurance Policies
for Acquisition of Air Force Systems
(D-2005-034)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
C4I                   Command, Control, Communications, Computers, and Intelligence
DITSCAP               DoD Information Technology Security Certification Accreditation
                         Program
GIG                   Global Information Grid
IA                    Information Assurance
KPP                   Key Performance Parameter
NS                    National Security
ORD                   Operational Requirements Document
SSAA                  System Security Authorization Agreement
TEMP                  Test and Evaluation Master Plan
          Office of the Inspector General of the Department of Defense
Report No. D-2005-034                                                   February 2, 2005
   (Project No. D2002AE-0188)

     Implementation of Interoperability and Information Assurance
            Policies for Acquisition of Air Force Systems

                                Executive Summary

Who Should Read This Report and Why? Civil servants and military managers who
are responsible for interoperability and information assurance requirements of Air Force
acquisition programs should read this report. This report addresses the importance of
adhering to DoD and Air Force interoperability and information assurance policies to
exchange secure information with other DoD and allied systems.

Background. This report is the fourth in a series of reports on the implementation of
interoperability and information assurance policies for the acquisition of DoD systems.
This report addresses the implementation of those policies within the Air Force; the
first report addressed the implementation of those policies within the Office of the
Secretary of Defense and the Defense agencies; the second report addressed the
implementation of those policies within the Army, and the third report addressed the
implementation of those policies within the Navy.

Results. The Air Force made progress updating and certifying its capabilities documents
to incorporate interoperability requirements. However, Air Force system program offices
were not always preparing required command, control, communications, computers, and
intelligence support plans (renamed information support plans) or obtaining Joint Staff
supportability certifications for programs with interoperability requirements. As a result,
milestone decision authorities do not have adequate information to determine whether a
system should proceed further through the acquisition process. The Air Force Chief
Information Officer, in collaboration with the Air Force Deputy Chief of Staff for
Warfighting Integration, needs to issue policy to require program managers to prepare
information support plans and obtain supportability certifications before program
decision reviews and before fielding the system (finding A).

After DoD issued guidance on net-ready key performance parameters, the Air Force
made progress identifying testable information assurance requirements in operational
requirements documents for Air Force programs with interoperability and supportability
requirements. However, Air Force system program offices did not always prepare
required system security authorization agreements for systems with information
technology requirements. Without those agreements, Air Force operational testers do not
have information needed to assess compliance with security requirements affecting
system confidentiality, integrity, availability, and accountability. The Air Force Chief
Information Officer needs to verify that system program offices prepare system security
authorization agreements for systems with information technology requirements
(finding B).

The Air Force had not populated and maintained its portion of the Global Information
Grid asset inventory for acquisition programs containing information technology
requirements. As a result, DoD cannot ensure that its acquisition programs have the most
effective, efficient, and secure information-handling capabilities available. The Inspector
General of the Department of Defense issued a report (Report No. D-2005-033,
“Implementation of the Interoperability and Information Assurance Policies for
Acquisition of Navy Systems,” February 2, 2005) on the Navy’s implementation of
interoperability and information assurance policies in acquiring DoD systems. The report
includes a recommendation on DoD guidance in populating and maintaining the GIG
asset inventory and includes a recommendation addressing the issue (finding C). See the
Findings section of the report for the detailed recommendations.

Management Comments. We received comments from the Director, Joint Staff and
from the Air Force Chief Information Officer, who also responded for the Air Force
Deputy Chief of Staff for Warfighting Integration. The Director agreed with the
recommendations. The Chief Information Officer concurred with the recommendations
and made suggestions to enhance the completeness and accuracy of this report. See the
Finding section of this report for a discussion of the management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     3

Findings
     A. Implementing Interoperability Policies                                 4
     B. Testing Air Force Acquisition Programs for Information Assurance      10
     C. Populating and Maintaining the Global Information Grid’s Asset
          Inventory                                                           17

Appendixes
     A. Scope and Methodology                                                 22
     B. Prior Coverage                                                        24
     C. Glossary                                                              25
     D. Global Information Grid                                               31
     E. Results of the Air Force Interoperability and Information Assurance
            Survey                                                            33
     F. Air Force Programs Surveyed                                           40
     G. Audit Response to Air Force Comments on the Report                    41
     H. Report Distribution                                                   44

Management Comments
     Joint Staff                                                              47
     Department of the Air Force                                              48
Background
           This report is the fourth in a series of reports on the implementation of
           interoperability and information assurance (IA) policies within DoD. This report
           addresses the Air Force’s implementation of those policies in the Joint
           Capabilities Integration and Development System,1 inclusion of adequate
           interoperability key performance parameters (KPPs)2 in requirements documents,
           and the interoperability certification process for Air Force acquisition programs.
           Appendix C provides a glossary of technical terms used in this report.

           Chairman of the Joint Chiefs of Staff Testimony on the President’s Proposed
           Defense Program for FY 2005. On February 4, 2004, General Pace, the Vice
           Chairman of the Joint Chiefs of Staff, testified before the U.S. House of
           Representatives Committee on Armed Services. General Pace described how
           information sharing is critical for planning and executing military operations. He
           testified that:
                         Since this is a global war requiring an international effort, we must also
                         improve coalition command and control capabilities, and consolidate
                         the numerous networks that exist today. These disparate networks
                         hinder our ability to plan in a collaborative environment and exercise
                         timely and effective command and control with our multinational
                         partners.

                         We must also review policies and implement technology that safeguard
                         our vital sensitive information while ensuring critical operational
                         information is shared with all those who fight beside us. JFCOM [Joint
                         Forces Command] has been tasked to take the lead in identifying
                         specific multinational information sharing requirements and
                         recommending policy changes. Our goal is to establish a multinational
                         family of systems with common standards as part of the Global
                         Information Grid enterprise services. I view this as a top priority and
                         ask for Congressional support ⎯ information sharing with our allies is
                         critical to winning the War on Terrorism.

           Top 10 Priorities. The Secretary of Defense issued a list of the top 10 DoD
           priorities. One priority is to strengthen joint warfighting capabilities, which was
           also one of the Secretary’s priorities for FY 2004. The intent of this priority is to
           improve joint concepts of operation through integrating air, land, and



1
    Chairman of the Joint Chiefs of Staff Instruction 3170.01C, “Joint Capabilities Integration and
    Development System,” June 24, 2003, replaced the interoperability requirements generation process with
    the Joint Capabilities Integration and Development System. Subsequently, Chairman of the Joint Chiefs
    of Staff Instruction 3170.01D, “Joint Capabilities Integration and Development System,” March 12, 2004,
    superseded Chairman of the Joint Chiefs of Staff Instruction 3170.01C.
2
    DoD Directive 4630.5, “Interoperability and Supportability of Information Technology (IT) and National
    Security Systems (NSS)” May 5, 2004, established the net-ready key performance parameter to replace
    the interoperability key performance parameter. However, this report addresses the interoperability key
    performance parameter because the programs reviewed during the audit were subject to the previous
    version of DoD Directive 4630.5, which addressed interoperability key performance parameters.


                                                        1
            sea capabilities, and strengthen joint exercises and joint training. By enhancing
            interoperability and communication among warfighters, joint warfighting
            capabilities will be strengthened.

            Joint Operations Concepts. In November 2003, the Secretary of Defense issued
            the Joint Operations Concepts (the Concepts), which elaborated on the joint
            warfighting requirements addressed in Joint Vision 2020 and provided the
            operational concept for the transformation of the Armed Forces to achieve joint
            force capabilities. The Concepts state that, to facilitate decision superiority, the
            joint force will use technology to provide actionable and precise intelligence at all
            levels of war, which requires a singular battlespace network to enable continuous
            and collaborative campaign planning and an adaptive command and control
            organization. The joint force must gain and maintain information superiority to
            facilitate decision superiority. Upon achieving decision superiority, the joint force
            can achieve full spectrum dominance when the joint force is integrated, networked,
            and interoperable with interagency and multinational partners. Full spectrum
            dominance is the defeat of any adversary or the control of any situation across the
            full range of military operations. Information superiority, decision superiority, and
            full spectrum dominance are elements of the Global Information Grid (GIG),
            which is discussed in Appendix D.

            Scope of Air Force Programs Surveyed. We judgmentally selected
            40 Air Force acquisition programs for review. Those programs were funded with
            research and development funds and were required to interface with other
            systems. We sent a questionnaire to the system program offices for those
            programs to survey their awareness of interoperability and IA requirements.
            Appendix E contains the results of the survey, and Appendix F lists the Air Force
            acquisition programs surveyed. In addition, we requested each system program
            office to provide the following documents:
                    • operational requirements document (ORD),3
                    •    command, control, communications, computers, and intelligence (C4I)
                         support plans,4
                    •    test and evaluation master plan (TEMP), and
                    •    system security authorization agreement (SSAA).

            Overall Audit Project. This project is a continuation of work reported in the
            Inspector General of the Department of Defense Report No. D-2003-011,

3
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12, 2003, states that,
    during system development and demonstration, the capabilities development document instead of the
    ORD will state the detailed operational performance parameters. Further, the Instruction states that the
    capabilities production document instead of the ORD will state the operational requirements resulting
    from system development and demonstration and will detail the performance expected of the production
    system. However, this report uses the term ORD because the programs reviewed during the audit usually
    provided ORDs.
4
    DoD Instruction 4630.8, “Procedures for Interoperability and Supportability of Information Technology
    (IT) and National Security Systems (NSS),” June 30, 2004, states that the information support plan
    replaces the C4I support plan specified in the DoD 5000 series documents. However, this report uses the
    term C4I support plan because the programs reviewed during the audit usually provided C4I support
    plans.


                                                       2
    “Implementation of Interoperability and Information Assurance Policies for
    Acquisition of DoD Weapon Systems,” October 17, 2002, which addressed
    whether the Office of the Secretary of Defense and the Defense agencies were
    effectively implementing DoD interoperability and IA policies. A subsequent
    audit, Report No. D-2004-008, “Implementation of Interoperability and
    Information Assurance Policies for Acquisition of Army Systems,” October 15,
    2003, addressed the adequacy of interoperability and IA requirements for systems
    in the Army. Further, Inspector General of the Department of Defense Audit
    Report No. D-2005-033, “Implementation of the Interoperability and Information
    Assurance Policies for Acquisition of Navy Systems,” February 2, 2005, assessed
    how effectively the Navy was implementing DoD interoperability and IA policies.

Objectives
    The primary audit objective was to evaluate whether the Air Force was effectively
    implementing DoD interoperability and IA policies for its acquisition programs.
    Specifically, the audit determined whether the Air Force was effectively
    identifying system interoperability and IA requirements in the requirements
    generation process. See Appendix A for a discussion of the audit scope and
    methodology. See Appendix B for prior coverage related to the audit objectives.




                                        3
            A. Implementing Interoperability
               Policies
            The Air Force made progress updating and certifying its capabilities
            documents to incorporate interoperability requirements. Specifically,
            38 of the 40 programs surveyed were required to have certified
            interoperability requirements. Of those 38 programs, 31 had updated
            capabilities documents to incorporate interoperability requirements and
            had obtained or were obtaining Joint Staff interoperability requirements
            certifications for those documents. However, the Air Force system
            program offices did not develop C4I support plans (renamed information
            support plans) as required or obtain Joint Staff supportability certifications
            for programs with interoperability requirements. Specifically, 36 of the
            40 programs surveyed required certified C4I support plans; of the
            36 programs, only 26 prepared C4I support plans and only 5 obtained
            supportability certification for those plans. The C4I support plans were
            not prepared and certified because the Air Force Chief Information Officer
            did not ensure that the Office of the Air Force Deputy Chief of Staff for
            Warfighting Integration updated policy to require program managers to
            prepare and submit certified C4I support plans before applicable program
            decision reviews. Without certified C4I support plans, milestone decision
            authorities do not have adequate information to determine whether a
            system should proceed further through the acquisition process.
            Specifically, the milestone decision authorities do not know whether the
            system is compatible with the existing C4I infrastructure for other DoD
            acquisition programs and whether it is able to meet warfighter
            interoperability and information needs.

Interoperability Requirements and Certification
     Interoperability Requirements and Certification Policy. DoD
     Directive 4630.5, “Interoperability and Supportability of Information Technology
     (IT) and National Security Systems (NSS)” May 5, 2004; Chairman of the Joint
     Chiefs of Staff Instruction 3170.01D, “Joint Capabilities Integration and
     Development System,” March 12, 2004; Chairman of the Joint Chiefs of Staff
     Instruction 6212.01C, “Interoperability and Supportability of Information
     Technology and National Security Systems,” November 20, 2003; and Air Force
     Instruction 10-601, “Capabilities Based Requirements Development,” July 30,
     2004, provide policy and responsibilities for interoperability and supportability of
     information technology and National Security (NS) systems.

             DoD Policy. DoD Directive 4630.5 established the net-ready KPP that
     replaced the interoperability KPP and incorporated net-centric concepts for
     achieving information technology and NS system interoperability and
     supportability. The Directive requires, as did the previous version of the policy,
     the DoD Components to identify interoperability and supportability requirements
     for information technology and NS systems during the acquisition process and to
     update them as necessary throughout the system’s life.


                                          4
                   Joint Staff Policy. Chairman of the Joint Chiefs of Staff
           Instruction 3170.01D requires all capability documents to include a net-ready
           KPP. In addition, Chairman of the Joint Chiefs of Staff Instruction 6212.01C
           requires the Director for Command, Control, Communications, and Computers
           Systems Directorate (J-6), Office of the Chairman of the Joint Chiefs of Staff
           (Joint Staff J-6) to certify interoperability requirements in the ORDs before
           milestone decisions for system acquisition programs.

                  Air Force Policy. Air Force Instruction 10-601 states that the net-ready
           KPP is documented in the capability development document and the capability
           production document.5

           Review of Operational Requirements Documents. The Air Force Director of
           Operational Capability Requirements, Office of the Deputy Chief of Staff for Air
           and Space Operations made progress incorporating interoperability or net-ready
           KPP requirements into its capabilities documents and obtaining the Joint Staff J-6
           interoperability requirements certification. Of the 40 Air Force programs
           surveyed, only 38 were required to have an interoperability or a net-ready KPP
           because the Air Force had fielded or placed 2 of the programs into operational use
           before DoD established the requirements for the interoperability or net-ready
           KPPs. As of May 2003, the Joint Staff J-6 either had certified or was certifying
           the interoperability requirements in the ORDs for 25 of the 38 Air Force
           programs. In August 2004, the number of ORDs with interoperability or
           net-ready KPPs that the Joint Staff J-6 had certified or was certifying had
           increased to 31 out of the 38 Air Force programs surveyed. By continuing to
           prepare requirements documents with certified net-ready KPPs, the Air Force
           programs surveyed have verifiable performance measures and associated metrics
           for the milestone decision authority to use at program milestone reviews to
           determine whether the systems have timely, accurate, and complete exchange and
           use of information to satisfy the warfighter needs.

C4I Support Plans
           C4I Support Plan Policy. DoD Instruction 4630.8, “Procedures for
           Interoperability and Supportability of Information Technology (IT) and National
           Security Systems (NSS),” June 30, 2004; Chairman of the Joint Chiefs of Staff
           Instruction 6212.01C; and Assistant Secretary of the Air Force (Acquisition)
           Memorandum, “Command, Control, Communications, Computers, and
           Intelligence (C4I) Support Plan (C4ISP) and System Certifications Policy,”
           April 25, 2002,6 provide guidance on preparing and updating C4I support plans.


5
    The capability development document and the capability production document were previously referred to
    as the ORD.
6
    This memorandum superseded Assistant Secretary of the Air Force (Acquisition) Memorandum,
    “Air Force Command, Control, Communications, Computers, and Intelligence Support Plan (C4ISP)
    Policy,” June 13, 2000, which required Air Force system program offices to develop C4I support plans for
    all new or developing acquisition programs that connect with Air Force communications and information
    infrastructures or that give the warfighter or DoD decision maker an operational capability that depends
    on timely, effective C4I infrastructure support.


                                                      5
                   DoD Instruction. DoD Instruction 4630.8 states that the C4I support plan
           is a mechanism to identify and resolve implementation issues related to the
           infrastructure for information technology and NS systems and interface
           requirements. The Instruction requires program managers to:

                   •   prepare an information support plan (C4I support plan) that identifies
                       the capabilities that the information technology and NS systems
                       require or the information needed to meet the proposed capability;

                   •   develop the information support plan (C4I support plan) concurrently
                       and collaboratively with the associated capability development
                       document or capability production document (referred to as ORDs in
                       the report), unless exceptions are noted in an acquisition decision
                       memorandum; and

                   •   update the information support plan (C4I support plan) as the program
                       matures or proceeds through multiple evolutionary blocks or phases.

           Further, the Instruction requires the Air Force Chief Information Officer to:

                   •   ensure compliance with DoD Instruction 4630.8;

                   •   ensure that the milestone decision authority or cognizant fielding
                       authority has an approved information support plan (C4I support plan)
                       before the system enters into the system development and
                       demonstration phase of the acquisition process; and

                   •   comply with Joint Staff procedures for interoperability certification.

                   Joint Staff Instruction. Chairman of the Joint Chiefs of Staff
           Instruction 6212.01C requires the Joint Staff J-6 to certify to the Assistant
           Secretary of Defense for Networks and Information Integration/DoD Chief
           Information Officer7 that C4I support plans, regardless of acquisition category,
           address information technology and NS system infrastructure requirements
           adequately and the availability of bandwidth and spectrum support, funding, and
           personnel; and identify dependencies and interface requirements among DoD
           acquisition programs. The Instruction also requires the Military Departments to
           provide guidance and direction to all program managers, specifying that all
           systems must be certified in accordance with applicable policy.

                  Air Force Memorandum. The Assistant Secretary of the Air Force
           (Acquisition) Memorandum requires Air Force system program managers to:

                   •   Develop and maintain a C4I support plan for their systems.

                   •   Conduct a self-assessment to determine whether the C4I surveillance
                       and reconnaissance document for their system supports the
                       requirements. If the self-assessment determines that a C4I support

7
    Formerly named the Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence).


                                                    6
                         plan is not required because a C4I surveillance and reconnaissance
                         supportability issue does not exist, the program manager must prepare
                         a justification letter and forward it to the Director for Information
                         Dominance, Office of the Assistant Secretary of the Air Force
                         (Acquisition) to obtain approval for not preparing a C4I support plan.
                         The Director coordinates approval or disapproval with the Assistant
                         Secretary of Defense for Networks and Information Integration/DoD
                         Chief Information Officer and the Joint Staff, as required.

                    •    Determine whether a modification or upgrade requires a C4I support
                         plan. If the C4I support plan is not required, the system program
                         manager will forward a justification letter with a self-assessment to the
                         Director for Information Dominance for approval.

            Review of C4I Support Plans. During our review of the 40 Air Force programs
            surveyed, we determined that not all Air Force program managers were preparing
            C4I support plans and obtaining Joint Staff supportability certification of those
            plans.

                    C4I Support Plan Preparation. We requested C4I support plans from
            the 40 Air Force system program offices8 and received 30 C4I support plans.
            Thirty-six of the 40 Air Force programs were past the system development and
            demonstration milestone decision, and 4 were yet to have a system development
            and demonstration milestone decision. As a result, the program managers for
            those 36 programs should have prepared a C4I support plan. However, only
            26 of the 36 programs had a C4I support plan.9 The remaining 10 Air Force
            system program offices stated that they did not prepare a C4I support plan
            because:

                    •    the program existed before the C4I support plan requirement (legacy
                         system) (five system program offices),

                    •    a waiver was issued (one system program office),

                    •    the program office did not feel it was required to develop a C4I
                         support plan (two system program offices), and

                    •    the program office was in the planning stages of developing its C4I
                         support plan (two system program offices).

                   Joint Staff Supportability Certification. Of the 26 C4I support plans
            obtained for the 36 Air Force programs required to have a C4I support plan:

                    •    5 C4I support plans had received the required supportability
                         certification from the Joint Staff J-6,

8
    We requested C4I support plans by a data request and followed up with the program offices to verify the
    latest status of the C4I support plans.
9
    The program managers provided C4I support plans for the four programs that had not yet undergone a
    system development and demonstration milestone decision; however, those plans needed to be certified.


                                                       7
            •   7 C4I support plans had been in the required supportability
                certification process for more than 1 year without advancement, and

            •   14 C4I support plans had not been submitted to the Joint Staff J-6 for
                the required supportability certification process.

     Although DoD policy requires the Air Force Chief Information Officer to ensure
     that program managers have an approved and certified C4I support plan before
     the system enters into the system development and demonstration phase, the
     Air Force Chief Information Officer did not have procedures established to
     enforce compliance with the DoD policy. According to personnel in the Office of
     the Air Force Chief Information Officer, the procedures should have been
     promulgated; however, as the result of a reorganization of the Office of the
     Assistant Secretary of the Air Force (Acquisition) in 2001, the responsibility for
     preparing the procedures became that of the Office of the Air Force Deputy Chief
     of Staff for Warfighting Integration. Personnel in the Office of the Air Force
     Deputy Chief of Staff for Warfighting Integration confirmed the responsibility
     and stated that they were updating Air Force Instruction 33-108, “Compatibility,
     Interoperability, and Integration of Command, Control, Communications, and
     Computers (C4) Systems,” July 14, 1994, to include C4I support plan guidance
     that complies with DoD Instruction 4630.8.

Effects of Developing and Certifying C4I Support Plans
     Without Air Force system program offices preparing and certifying C4I support
     plans, milestone decision authorities do not have adequate information to
     determine whether a system should proceed further through the acquisition
     process. Specifically, the milestone decision authorities do not know whether the
     system is compatible with the existing C4I infrastructure for other DoD
     acquisition programs and whether it is able to meet warfighter interoperability
     and information needs.

Management Comments on the Finding and Audit Response
     A summary of management comments on the finding and audit responses is in
     Appendix G.




                                         8
Recommendation and Management Comments
    A. We recommend that the Air Force Chief Information Officer, in
    collaboration with the Air Force Deputy Chief of Staff for Warfighting
    Integration, issue policy to require program managers to prepare
    information support plans and obtain supportability certifications before
    program decision reviews and before fielding the system, in accordance with
    DoD Instruction 4630.8, “Procedures for Interoperability and Supportability
    of Information Technology (IT) and National Security Systems (NSS),”
    June 30, 2004.

    Air Force Chief Information Officer Comments. The Air Force Chief
    Information Officer, who also responded for the Air Force Deputy Chief of Staff
    for Warfighting Integration, concurred, stating that Air Force Policy
    Directive 33-2, “Information Assurance Program,” will address the requirement
    for program managers to prepare information support plans and obtain
    supportability certification before program decision reviews and before fielding
    the system. Further, the Air Force Chief Information Officer stated that the
    Directive will be staffed in early 2005 and that his staff contacted the Office of
    the Assistant Secretary of the Air Force (Acquisition) to ensure that Air Force
    acquisition guidance also included the correct guidance. For the complete text of
    the Air Force Chief Information Officer’s comments, see the Management
    Comments section of the report.

    Director, Joint Staff Comments. Although not required to comment, the
    Director agreed with the recommendation, stating that the Joint Staff will support
    the recommendation through its role as a principal member of the Interoperability
    Test Panel. For the complete text of the Director’s comments, see the
    Management Comments section of the report.




                                         9
           B. Testing Air Force Acquisition
              Programs for Information Assurance
           After DoD issued guidance on net-ready KPPs, the Air Force made
           progress in identifying testable IA requirements in ORDs for Air Force
           programs with interoperability and supportability requirements. However,
           Air Force system program offices were not always preparing required
           SSAAs for systems with information technology requirements. Only
           26 of 40 system program offices surveyed had prepared SSAAs. For the
           remaining 14 system program offices, the SSAAs were not prepared
           because the Air Force Chief Information Officer did not verify that the
           respective system program offices had prepared SSAAs when the system
           was subject to the DoD Information Technology Security Certification
           Accreditation Program (DITSCAP). For those programs with SSAAs, the
           Air Force operational testers were coordinating with the SSAA signatories
           to minimize duplicative testing efforts. Without an SSAA, the testers do
           not have information needed to assess compliance with the technical and
           nontechnical implementation of the security design and to determine
           whether the system program office properly implemented security features
           affecting system confidentiality, integrity, availability, and accountability.

Defining Information Assurance Requirements for Testing
    Information Assurance Requirements Policy. DoD Directive 4630.5; DoD
    Directive 8500.1, “Information Assurance,” October 24, 2002; DoD
    Instruction 8500.2, “Information Assurance Implementation,” February 6,
    2003; DoD Instruction 8580.1, “Information Assurance (IA) in the Defense
    Acquisition System,” July 9, 2004; Chairman of the Joint Chiefs of Staff
    Instruction 3170.01D; Chairman of the Joint Chiefs of Staff Instruction 6212.01C;
    and Air Force Instruction 10-601 provide policy and responsibilities for
    information assurance of information technology and NS systems.

           DoD Directive 4630.5. DoD Directive 4630.5 requires the DoD
    Components to develop and use net-ready KPPs to assess IA attributes for the
    technical exchange of information and the operational effectiveness of that
    exchange.

            DoD Directive 8500.1. DoD Directive 8500.1 requires the DoD
    Components to identify and include IA requirements in the design, acquisition,
    installation, operation, upgrade, or replacement of all DoD information systems
    for which they have responsibility.

            DoD Instruction 8500.2. DoD Instruction 8500.2 requires IA managers
    to ensure that IA inspections, tests, and reviews are coordinated. In addition, the
    Instruction states that:

           •   the ability to test and verify is an essential competency of the DoD IA
               program, and


                                         10
                 •    the IA objective condition is testable, IA compliance is measurable,
                      and the activities required to achieve the IA control are assignable and
                      accountable.

                DoD Instruction 8580.1. DoD Instruction 8580.1 implements acquisition
        policy for IA, assigns responsibilities, and prescribes procedures to integrate IA
        into the DoD acquisition system. The Instruction requires:

                 •    DoD Components to implement IA in all DoD system acquisitions in
                      accordance with the DoD 5000 series; and

                 •    program managers to fully integrate IA into all phases of their
                      acquisition, upgrade, or modification programs, including initial
                      design, development, testing, fielding, and operation.

                Joint Staff Policy. Chairman of the Joint Chiefs of Staff
        Instruction 3170.01D requires all capability documents to include a net-ready
        KPP.10 In addition, Chairman of the Joint Chiefs of Staff Instruction 6212.01C
        requires the net-ready KPP, including the information assurance component, to
        consist of measurable, testable, or calculable characteristics and performance
        metrics required for timely, accurate, and complete exchange and use of
        information.

               Air Force Policy. Air Force Instruction 10-601 states that the net-ready
        KPP is documented in the capability development document and the capability
        production document.

        Review of Operational Requirements Documents. Before DoD issued
        guidance on net-ready KPPs, the Air Force did not always identify testable
        IA requirements in ORDs for Air Force programs with interoperability and
        supportability requirements. During the audit, the Air Force began to incorporate
        IA requirements into its capability documents as part of the net-ready KPP
        requirements.

        During our review of the 40 Air Force programs, we determined whether the
        ORDs for the programs contained IA requirements that could be measured, tested,
        and evaluated. Although 28 of the 40 ORDs contained IA requirements, only 16
        of them were written in output-oriented and measurable terms. Personnel from
        the Office of the Air Force Director of Operational Capability Requirements
        stated that, as a result of the Chairman of the Joint Chiefs of Staff
        Instruction 6212.01C requiring all capability documents to include a net-ready
        KPP, they began requiring programs to incorporate net-ready KPP requirements
        with testable IA requirements into capability documents. Of the 40 programs
        surveyed, the personnel stated that 3 had net-ready KPPs in their capability
        documents, 1 had begun to incorporate a net-ready KPP into its capability
        document, and 3 had net-ready KPP migration strategies to convert the
        interoperability KPPs into net-ready KPPs as of September 2004. When


10
  Chairman of the Joint Chiefs of Staff Instruction 6212.01C stated that interoperability KPPs were
 superceded by net-ready KPPs.


                                                    11
            capability documents specify testable IA requirements, testers can more readily
            determine whether an acquisition program’s IA requirements are operationally
            effective and suitable to meet warfighter requirements.

Preparing and Maintaining System Security Authorization
  Agreements
            SSAA Policy. DoD Instruction 5200.40, “DoD Information Technology Security
            Certification and Accreditation Process (DITSCAP),” December 30, 1997; and
            Air Force Instruction 33-202, “Network and Computer Security,” June 17, 2004,
            provide policies and procedures for the DITSCAP, including SSAAs.

                    DoD Instruction 5200.40. DoD Instruction 5200.40 states that the
            DITSCAP applies to the acquisition, operation, and sustainment of any DoD
            system that collects, stores, transmits, or processes unclassified or classified
            information. Further, the Instruction states that a critical element of the
            DITSCAP is the agreement among the information technology system program
            manager,11 the designated approving authority, the certification authority, and
            the user representative to resolve critical schedule, budget, security,
            functionality, and performance issues. This agreement is documented in the
            SSAA that is used to guide and document the results of the certification and
            accreditation process. The SSAA establishes a binding agreement on the level
            of security required before the system is developed or changes begin. The
            SSAA is used throughout the entire DITSCAP to guide actions, document
            decisions, specify information technology security requirements, document
            certification tailoring and level of effort, identify possible solutions, and
            maintain operational system security.

                   Air Force Instruction 33-202. Air Force Instruction 33-202 establishes
            Air Force computer security requirements for information protection in
            compliance with DoD Instruction 5200.40. The Instruction applies to all
            personnel who develop, acquire, deliver, use, operate, or manage Air Force
            information systems. Further, the Instruction requires:

                    •    the Air Force Chief Information Officer to ensure that IA is an
                         integral part of information systems and applications design, and

                    •    the program manager to develop the SSAA.

            SSAA Implementation. In practice, Air Force system program offices were not
            preparing SSAAs for acquisition programs with information technology
            requirements in that only 26 of the 40 system program offices surveyed had
            prepared SSAAs. To determine whether Air Force system program offices had an
            SSAA, we requested SSAAs from the program managers for the 40 system
            program offices surveyed. We also contacted the Air Force Operational Test and

11
     The term program manager refers to the acquisition program manager during the system acquisition, the
     system manager during the operation of the system, or the maintenance organization’s program manager
     when a system is undergoing a major change.


                                                     12
            Evaluation Center, which conducts the Air Force’s operational testing and
            evaluation to determine whether it required and received SSAAs for use in
            conducting operational testing.

                    SSAA Survey. In the survey questionnaire on the implementation of
            interoperability and IA requirements, we asked the program managers the
            following question concerning SSAAs: Of the following documentation normally
            provided to the milestone decision authority at the system development and
            demonstration decision point and the production and deployment decision point,
            which adequately describes IA requirements and strategies? In response, 20 of the
            40 program managers believed that the SSAA best described the IA requirements
            and strategies for the system development and demonstration milestone decision
            and 8 of the 40 program managers believed that it best described the IA
            requirements and strategies for the production and deployment milestone decision
            (Appendix E contains the results of the survey).

                   SSAA Request. Based on our request, 26 of the 40 Air Force system
            program offices provided an SSAA. We did not determine whether the contents of
            the SSAAs were adequate. Only through the preparation of SSAAs before
            program milestone decision points can the milestone decision authority have
            assurance that the SSAA signatories12 have all agreed on the method for
            implementing information technology security requirements and maintaining
            operational systems security.

                    Air Force Operational Test and Evaluation Center. Air Force
            Operational Test and Evaluation Center personnel stated that they required
            SSAAs as part of their operational test readiness review. When an SSAA was not
            available, the testers did not have information needed to assess compliance with
            the technical and nontechnical implementation of the security design and to
            determine whether the system program office had properly implemented security
            features affecting system confidentiality, integrity, availability, and
            accountability.

Coordination of DITSCAP Testing and Program Evaluation
            DITSCAP Coordination Requirements. DoD Instruction 5000.2, “Operation
            of the Defense Acquisition System,” May 12, 2003; DoD Guidebook, “Interim
            Defense Acquisition Guidebook,” October 30, 2002;13 Director, Operational Test
            and Evaluation memorandum, “Policy for Operational Test and Evaluation of
            Information Assurance,” November 17, 1999; and Air Force Instruction 33-202,
            “Network and Computer Security,” June 17, 2004, discuss the coordination of
            DITSCAP testing.

12
     The SSAA signatories are the program manager, the designated approving authority, the certification
     authority, and the user.
13
 Formerly DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs
 (MDAPs) and Major Automated Information System (MAIS) Acquisition Programs,” April 5, 2002. The
 former DoD Regulation 5000.2-R will serve as the guidebook while the Defense Acquisition Policy
 Working Group creates a streamlined guidebook.


                                                      13
                    DoD Instruction. DoD Instruction 5000.2 requires the program manager,
            together with the user and test and evaluation communities, to coordinate
            developmental test and evaluation, operational test and evaluation, live-fire test
            and evaluation, family-of-systems interoperability testing, IA testing, and
            modeling and simulation activities into an efficient process that is integrated with
            the system requirements definition and the system design and development.

                    DoD Guidebook. The Guidebook states that testers should conduct IA
            testing on information systems to verify that planned and implemented security
            measures satisfy ORD and SSAA requirements when the system is installed and
            operated in its intended environment. Further, the Guidebook states that the
            program manager, the operational test and evaluation authority, and the
            designated approving authority should coordinate and determine the level of risk
            associated with operating a system and the extent of security testing14 required.15

                   Director, Operational Test and Evaluation Policy. The Director,
            Operational Test and Evaluation memorandum16 requires the operational test
            agencies for programs subject to the DITSCAP to coordinate with the SSAA
            signatories throughout the acquisition cycle to minimize duplicative testing by the
            operational test agencies. Further, the memorandum requires the operational test
            agencies and the SSAA signatories to maximize opportunities to meet operational
            requirements through concurrent testing, particularly in DITSCAP vulnerability
            assessments, security tests and evaluations, and penetration testing.

                   Air Force Instruction 33-202. Air Force Instruction 33-202 establishes
            Air Force computer security requirements associated with information protection.
            The Instruction requires the program manager to ensure the appropriate
            coordination and review of all decisions concerning security trade-offs and
            changes in requirements with the SSAA signatories.

            Coordination of IA Test Results. The Air Force operational testers for
            programs subject to the DITSCAP were coordinating with the SSAA signatories
            to minimize duplicative testing. To determine how effectively the Air Force
            operational testers were coordinating with the SSAA signatories to minimize
            duplicative IA testing, we contacted personnel from the Air Force Operational
            Test and Evaluation Center and the Air Force Information Warfare Center and
            reviewed applicable test reports.

                   Air Force Operational Test and Evaluation Center. Air Force
            Operational Test and Evaluation Center representatives stated that their
            organization did not have the internal resources to conduct IA technical
            evaluations. Instead, they incorporate and rely on IA test results from the

14
     Security testing is the examination and analysis of the safeguards, which are required to protect an
     information technology system, to determine the security capabilities of that system.
15
     The April 2002 and the June 2001 versions of DoD Regulation 5000.2-R had the same requirements as
     the DoD Guidebook.
16
     According to personnel in the Office of the Director, Operational Test and Evaluation, the Office of the
     Secretary of Defense incorporated the intent of the memorandum into the May 2003 version of the
     DoD 5000 series documents; however, as of October 2004, that office was updating the policy to address
     IA operational test and evaluation.


                                                        14
            Air Force Information Warfare Center for inclusion in their test reports. In
            addition, the representatives stated that, as members of the integrated test team,
            they were aware of developmental as well as operational testing events.
            Specifically, they include in their test reports IA test results from developmental
            testing, as applicable. To further enhance the test and evaluation process, the
            representatives stated that their organization was preparing an IA checklist to
            ensure compliance with DITSCAP, DoD Instruction 8500.2, and National
            Institute of Standards and Technology Act17 requirements associated with
            information technology.

                    Air Force Information Warfare Center. The Air Force Information
            Warfare Center plans and conducts operations security, IA, and system
            vulnerability assessments as described in program documentation and integrated
            test plans, and participates in integrated test teams and test integrated product
            teams. Representatives from the Air Force Information Warfare Center stated
            that their ability to facilitate and coordinate with SSAA signatories concerning
            whether programs meet interoperability and IA requirements has improved as a
            result of the requirement to include specific IA requirements in capability
            documents.

                    Test Reports. To determine the extent of Air Force Information Warfare
            Center coordination with SSAA signatories, we reviewed three Air Force
            Information Warfare Center test reports on Air Force acquisition programs
            subject to the DITSCAP. Of the three test reports, two addressed system security
            and vulnerability findings and recommendations that the Air Force Information
            Warfare Center had coordinated with the respective system program offices. The
            test reports addressed the accompanying recommendations to the respective
            SSAA signatories and included actions to mitigate the system vulnerabilities that
            were identified during testing and analysis. By coordinating with the SSAA
            signatories for programs subject to the DITSCAP and with the Air Force
            Operational Test and Evaluation Center, the Air Force Information Warfare
            Center operational testers minimized duplicative testing for decisions concerning
            security trade-offs and changes in IA requirements.

Management Comments on the Finding and Audit Response
            A summary of management comments on the finding and audit responses is in
            Appendix G.




17
     The National Institute of Standards and Technology Act requires the Institute to develop standards,
     guidelines, and associated methods and techniques for information systems. Those standards and
     guidelines are to include standards to be used by all agencies to categorize information and information
     systems collected or maintained by or on behalf of each agency. Further, the standards and guidelines are
     to include guidelines developed with DoD, including the National Security Agency, for identifying an
     information system as an NS system.


                                                       15
Recommendation and Management Comments
            B. We recommend that the Air Force Chief Information Officer verify that
            Air Force system program offices prepared system security authorization
            agreements before milestone decision points for systems subject to the DoD
            Information Technology Security Certification and Accreditation Process, in
            accordance with DoD Instruction 5200.40, “DoD Information Technology
            Security Certification and Accreditation Process (DITSCAP),” December 30,
            1997, and Air Force Instruction 33-202, “Network and Computer Security,”
            June 17, 2004.

            Air Force Chief Information Officer Comments. The Air Force Chief
            Information Officer concurred, stating that SSAA information is collected in the
            Air Force Enterprise Information Technology Data Repository.18 Further, the
            Air Force Chief Information Officer stated that his staff now verify the existence
            of an SSAA as part of the information assurance strategy review process. For the
            complete text of the Air Force Chief Information Officer’s comments, see the
            Management Comments section of the report.

            Director, Joint Staff Comments. Although not required to comment, the
            Director agreed with the recommendation, stating that the Joint Staff will support
            the recommendation through its role as a principal member of the Interoperability
            Test Panel. For the complete text of the Director’s comments, see the
            Management Comments section of the report.




18
     The Air Force Enterprise Information Technology Data Repository, formerly called the Systems
     Compliance Database, is a repository of information on information technology systems and initiatives to
     support the Clinger-Cohen Act information technology registration, Federal Information Security
     Management Act compliance, and information technology portfolio management, and will support C4I
     support planning beginning in November 2005.


                                                      16
                     C. Populating and Maintaining
                        the Global Information Grid’s
                        Asset Inventory
                     The Air Force had not populated and maintained its portion of the GIG19
                     asset inventory for acquisition programs containing information
                     technology requirements. The GIG asset inventory was not populated
                     because DoD had not issued guidance specifying:

                              •    the composition of the GIG asset inventory for acquisition
                                   programs containing information technology requirements, and

                              •    the process that the Air Force and the other DoD Components
                                   need to follow to populate and maintain their respective GIG
                                   asset inventories.

                     Without a defined policy describing how the DoD Components will
                     populate and maintain the GIG asset inventory for acquisition programs
                     containing information technology requirements, DoD cannot ensure that
                     its acquisition programs have the most effective, efficient, and secure
                     information-handling capabilities available, consistent with national
                     military strategy and warfighter operational requirements.

GIG Statutory Requirements and Policy
            The Federal Information Security Management Act of 2002; section 2223,
            title 10, United States Code, “Information Technology: Additional
            Responsibilities of Chief Information Officers;” DoD Directive 4630.5; and DoD
            Directive 8100.1, “Global Information Grid (GIG) Overarching Policy,”
            November 21, 2003, provide statutory requirements and policy for the GIG asset
            inventory.
            Federal Information Security Management Act of 2002. Section 305,
            “Technical and Conforming Amendments,” of the Act requires DoD to develop
            and maintain an inventory of major information systems, including major NS
            systems, that it operates or controls. Further, section 301, “Information Security,”
            states that NS systems include information systems used or operated by an agency
            or contracted by an agency, the function, operation, or use of which involves
            intelligence activities, cryptologic agencies related to NS, command and control
            of military forces, and equipment that is an integral part of a weapon or weapons
            system that is critical to direct fulfillment of military or intelligence missions.


19
     The GIG is not one system; it is an end-to-end set of information capabilities, associated processes, and
     personnel for collecting, processing, storing, disseminating, and managing information on demand to
     warfighters, policy makers, and support personnel. The GIG includes all owned and leased
     communication and computing systems, services, software, data, security services, NS systems, and
     associated services necessary to achieve information superiority.


                                                        17
            Section 2223. Section 2223 requires the DoD Chief Information Officer to
            maintain a consolidated inventory of DoD mission-critical and mission-essential
            information systems, identify interfaces between those systems and other
            information systems, and develop and maintain contingency plans for responding
            to a disruption in the operation of any of those information systems.

            DoD Directive 4630.5. The Directive updates DoD policy and responsibilities
            for interoperability and supportability of information technology, including NS
            systems, and implements DoD Chief Information Officer’s responsibilities. The
            Directive requires the DoD Chief Information Officer to ensure the development,
            implementation, and maintenance of the GIG architecture in accordance with
            DoD Directive 8100.1.

            DoD Directive 8100.1. The Directive establishes policy and assigns
            responsibilities for GIG configuration management and architecture to the Office
            of the Secretary of Defense as well as the Military Departments. The Directive
            requires:

                     •   the establishment and maintenance of an enterprise-wide inventory of
                         GIG assets;
                     •   the Under Secretary of Defense for Acquisition, Technology, and
                         Logistics to ensure that acquisition programs fully consider
                         documented GIG requirements;
                     •   the Under Secretary of Defense (Comptroller) to collaborate with the
                         DoD Chief Information Officer, where necessary, to identify and
                         coordinate improvements to identify and describe information
                         technology resources;
                     •   the DoD Components, including the Joint Chiefs of Staff, to populate
                         and maintain their portions of the GIG asset inventory; and
                     •   the Chairman of the Joint Chiefs of Staff to develop joint doctrine and
                         ensure the compatibility of the Chairman of the Joint Chiefs of Staff
                         instructions with GIG policy and guidance.

            Before DoD issued DoD Directive 8100.1, the above requirements were included
            in Deputy Secretary of Defense Memorandum, “DoD Chief Information Officer
            (CIO) Guidance and Policy Memorandum No. 8-8001 – March 31, 2000 – Global
            Information Grid,” March 31, 2000.

GIG Asset Inventory
            Compiling a GIG Asset Inventory. Personnel in the Office of the Air Force
            Chief Information Officer stated that the Air Force had not compiled a GIG asset
            inventory of major information systems, including acquisition programs
            containing information technology requirements.20 Although no Air Force GIG
20
     Although not a GIG asset inventory, the Air Force Chief Information Officer noted that the Air Force did
     conduct an inventory of assets using the Enterprise Information Technology Data Repository, which
     feeds into the DoD Information Technology Registry.


                                                       18
            asset inventory existed, we asked the 40 Air Force program offices surveyed
            whether they considered their programs to be part of the GIG asset inventory.
            The program offices’ responses were as follows:

                     •   14 Air Force program offices responded that their programs were part
                         of the GIG asset inventory,
                     •   16 Air Force program offices responded that their programs were not
                         part of the GIG asset inventory, and
                     •   10 Air Force program offices were not sure whether their programs
                         were part of GIG asset inventory.

            Appendix E contains the complete results of the program offices’ survey.

            Issuing GIG Asset Inventory Guidance. According to representatives from the
            Office of the Air Force Chief Information Officer, the Air Force did not populate
            and maintain its portion of the GIG asset inventory because DoD had not issued
            guidance specifying the composition of the GIG asset inventory and the process
            that the Air Force and the other DoD Components need to follow to populate and
            maintain their respective GIG asset inventories. The representatives noted that
            the Deputy DoD Chief Information Officer had issued a memorandum,
            “Component Support of DoD Information Technology Portfolio Review Process,”
            July 13, 2004, which discusses populating the DoD Information Technology
            Portfolio Data Repository with DoD information systems,21 and that DoD
            Directive 8100.1 discusses what the GIG includes. However, the representatives
            stated that the DoD Information Technology Portfolio Data Repository was not
            the GIG asset inventory and that DoD Directive 8100.1 did not discuss how to
            populate and maintain the GIG asset inventory.

            Complying With the GIG Asset Inventory Requirement. According to the
            Principal Director to the Deputy DoD Chief Information Officer, DoD did not
            have a GIG asset inventory; however, the nearest DoD equivalent was the DoD
            Information Technology Registry,22 which DoD uses to compile data to meet the
            Federal Information Security Management Act reporting requirements.23 Further,

21
     A DoD information system is a set of information resources organized for the collection, storage,
     processing, maintenance, use, sharing, dissemination, disposition, display, or transmission of
     information. The DoD information system includes automated information system applications,
     enclaves, outsourced information-technology-based processes, and platform information technology
     connections.
22
     The DoD Information Technology Registry is the repository for information about the DoD mission-
     critical and mission-essential information technology systems. The Military Department Chief
     Information Officers were told to add all non-mission-critical and non-mission-essential information
     technology systems to the Registry by September 30, 2006.
23
     Inspector General of the Department of Defense response on October 6, 2004, to the Office of
     Management Budget regarding Federal agencies information security associated with the Federal
     Information Security Management Act of 2002 also addressed the GIG asset inventory issue. Further,
     Inspector General of the Department of Defense Report No. D-2005-029, “Management of Information
     Technology Resources Within DoD,” January 27, 2005, addressed the requirement for the Assistant
     Secretary of Defense for Networks and Information Integration to report the asset inventory relating to
     the status of DoD information systems to the Office of Management and Budget and for congressional
     purposes associated with the Federal Information Security Management Act of 2002.


                                                       19
     the Principal Director stated that, even though the DoD Information Technology
     Registry was not adequate to use as the GIG asset inventory, DoD may develop it
     into the GIG asset inventory. To this end, DoD is considering using the
     Department of the Navy Application and Database Management System on an
     interim basis for the GIG asset inventory. The Principal Director also stated that
     the Department of the Navy Application and Database Management System
     could:
             • absorb the DoD Information Technology Registry and
             • be expanded to include necessary GIG data elements if the System was
                used to build the GIG asset inventory.

     Further, the Principal Director stated that the Joint Staff J-6 contacted the Office
     of the DoD Chief Information Officer about using the DoD Information
     Technology Registry to replace the Joint C4I Program Assessment Tool to track
     systems that have completed the Joint Staff J-6 interoperability certification
     process. In conclusion, the Principal Director stated that changes in the
     application of the DoD Information Technology Registry may require DoD
     Directive 8100.1 to be updated.

Policy for Populating and Maintaining the GIG Asset
  Inventory
     Without a defined policy describing how the DoD Components will populate and
     maintain the GIG asset inventory for acquisition programs containing information
     technology requirements, DoD cannot ensure that its acquisition programs have
     the most effective, efficient, and secure information-handling capabilities
     available, consistent with national military strategy and warfighter operational
     requirements.

Conclusion
     To establish and maintain an enterprise-wide inventory of GIG assets, including
     acquisition programs containing information technology requirements, DoD
     guidance should be issued to define policy describing how the DoD Components
     will populate and maintain the GIG asset inventory. Inspector General of the
     Department of Defense Report No. D-2005-033, “Implementation of the
     Interoperability and Information Assurance Policies for Acquisition of Navy
     Systems,” February 2, 2005, addressed the need for DoD guidance in populating
     and maintaining the GIG asset inventory and will include a recommendation
     addressing the issue. Specifically, the resulting report recommended that the
     Assistant Secretary of Defense for Networks and Information Integration/DoD
     Chief Information Officer prepare and staff a DoD directive that specifies the:

            •   types of systems and system information capability requirements to be
                included in the GIG asset inventory and
            •   responsibilities of DoD Components in populating and maintaining the
                GIG asset inventory.

                                          20
Management Comments on the Finding
    A summary of management comments on the finding and audit responses is in
    Appendix G.




                                     21
Appendix A. Scope and Methodology
           We reviewed documentation dated from March 1994 to July 2004. To
           accomplish the audit objective, we reviewed:

                   •   the Air Force’s efforts to implement interoperability and information
                       assurance requirements during the acquisition process for acquisition
                       programs;

                   •   system requirements and capabilities documentation for
                       interoperability and information assurance requirements;

                   •   the controls over the Joint Staff J-6 interoperability certification
                       process and the Joint Command, Control, Communications,
                       Computers, and Intelligence Program Assessment Tool; and

                   •   applicable criteria.

           We also contacted the staffs of the Assistant Secretary of Defense for Networks
           and Information Integration/DoD Chief Information Officer; the Air Force Air
           Combat Command; the Air Force Air Mobility Command; the Air Force Space
           Command; the Director for Command, Control, Communications, and Computers
           Systems Directorate (J-6), Office of the Chairman of the Joint Chiefs of Staff; the
           Defense Information Systems Agency; the Deputy Assistant Secretary of the
           Air Force (Management Policy and Program Integration), Office of the Assistant
           Secretary of the Air Force (Acquisition); the Air Force Chief Information Officer;
           the Directorate of Command, Control, Communications, and Computers,
           Intelligence, Surveillance, and Reconnaissance Infostructure, Office of the
           Air Force Deputy Chief of Staff for Warfighting Integration; the Directorate of
           Operational Capabilities Requirements, Office of the Air Force Deputy Chief of
           Staff for Air and Space Operations; the Air Force Operational Test and
           Evaluation Center; the Joint Interoperability Test Command; the Air Force Test
           and Evaluation Directorate; the Air Force Communications Agency; and the
           Air Force Information Warfare Center.

           In addition, we judgmentally selected for review 40 Air Force acquisition
           programs24 to:
                   •   obtain the program managers’ perspectives on interoperability and
                       IA requirements;

                   •   review ORDs, C4I support plans, TEMPs, and SSAAs; and



24
     The Predator Unmanned Aerial Vehicle program comprises two systems: the Predator Medium Altitude
     Endurance Unmanned Aerial Vehicle (RQ-1A) and the Predator Hunter-Killer Unmanned Aerial Vehicle
     (MQ-9). However, the audit reviewed only the RQ-1A because the supporting documentation for the
     MQ-9 was not available at the time of the audit.


                                                   22
       •   determine the stage of each program in the Joint Command, Control,
           Communications, Computers, and Intelligence Program Assessment
           Tool repository for Joint Staff J-6 interoperability certification.

We performed this audit from July 2002 through November 2004 in accordance
with generally accepted government auditing standards. We did not review the
management control program because the audit focused on interoperability and
IA requirements and review processes; therefore, our scope was limited to those
specific requirements and processes.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the DoD weapon systems acquisition high-risk area.

Use of Technical Support. The Technical Assessment Division, Office of the
Assistant Inspector General for Audit Followup and Technical Support assisted
the audit by reviewing the ORDs, C4I support plans, TEMPs, and SSAAs for the
programs reviewed. In addition, the Technical Assessment Division reviewed
selected test reports that the Air Force Operational Test and Evaluation Command
prepared during FYs 2001, 2002, and 2003 to determine whether testers
performed IA testing in accordance with DoD and Air Force policy.

Use of Computer-Processed Data. We did not rely on computer-processed data
to perform this audit.




                                    23
Appendix B. Prior Coverage
     During the last 5 years, the Government Accountability Office, the Inspector
     General of the Department of Defense, and the Defense Science Board have issued
     nine reports addressing interoperability and IA requirements for DoD systems.
     Unrestricted Government Accountability Office and Inspector General of the
     Department of Defense reports can be accessed at http://www.gao.gov and
     http://www.dodig.osd.mil/audit/reports, respectively.

Government Accountability Office (GAO)
     GAO Report GAO-04-858, “Defense Acquisitions - The Global Information Grid
     and Challenges Facing Its Implementation,” July 2004

     GAO Report GAO-03-329, “Defense Acquisitions - Steps Needed to Ensure
     Interoperability of Systems that Process Intelligence Data,” March 2003

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2005-033, “Implementation of the Interoperability and
     Information Assurance Policies for Acquisition of Navy Systems,” February 2,
     2005

     IG DoD Report No. D-2004-008, “Implementation of Interoperability and
     Information Assurance Policies for Acquisition of Army Systems,” October 15,
     2003

     IG DoD Report No. D-2003-024, “Information Assurance Challenges – An
     Evaluation of Audit Results Reported from August 23, 2001, through July 31,
     2002,” November 21, 2002

     IG DoD Report No. D-2003-011, “Implementation of Interoperability and
     Information Assurance Policies for Acquisition of DoD Weapon Systems,”
     October 17, 2002

     IG DoD Report No. D-2001-176, “Survey of Acquisition Manager Experience
     using the DoD Joint Technical Architecture in the Acquisition Process,”
     August 22, 2001

     IG DoD Report No. D-2001-121, “Use of the DoD Joint Technical Architecture
     in the Acquisition Process,” May 14, 2001

Defense Science Board
     Defense Science Board Task Force, “Protecting the Homeland, Report of the
     Defense Science Board Task Force on Defensive Information Operations,
     2000 Summer Study, Volume II,” March 2001



                                       24
Appendix C. Glossary
   Accreditation. Accreditation is the formal declaration by the designated
   approving authority that an information technology system is approved to operate
   in a particular security mode using a prescribed set of safeguards at an acceptable
   level of risk.

   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   applicable procedures. The acquisition categories consist of I, major Defense
   acquisition programs; IA, major automated information systems; II, major
   systems; III, programs not meeting the criteria for acquisition categories I, IA, or
   II; and IV, programs designated as such by the Air Force, Navy, and Marine
   Corps.

   Air Force Enterprise Information Technology Data Repository. The
   Air Force Enterprise Information Technology Data Repository, formerly called
   the Systems Compliance Database, is a repository of information on information
   technology systems and initiatives to support the Clinger-Cohen Act information
   technology registration, Federal Information Security Management Act
   compliance, and information technology portfolio management, and will support
   C4I support planning beginning in November 2005.

   Architecture. An architecture is the structure of components, their relationships,
   and the principles and guidelines governing their design and evolution over time.

   Capstone Requirements Document. A capstone requirements document
   contains capabilities-based requirements that facilitate the development of
   individual capability development documents by providing a common framework
   and operational concept to guide their development.

   Certification Authority. Certification authority is the official responsible for
   performing the comprehensive evaluation of the technical and nontechnical
   security features of an information technology system and other safeguards to
   determine the extent to which a particular design and implementation meet a set
   of specified security requirements.

   Command, Control, Communications, Computers, and Intelligence Support
   Plan. A C4I support plan describes system dependencies and interfaces in
   sufficient detail to enable program managers and operational testers to test
   interoperability key performance parameters derived from information exchange
   requirements.

   Command, Control, Communications, Computers, and Intelligence
   Surveillance and Reconnaissance Architecture Framework. The C4I
   surveillance and reconnaissance architecture framework provides rules, guidance,
   and product descriptions for developing and presenting different architectural
   views of a given system to ensure a common denominator for understanding,
   comparing, and integrating architectures across DoD.


                                        25
Designated Approving Authority. The designated approving authority is an
official with the authority to formally assume responsibility for operating a
system at an acceptable level of risk. The term designated approving authority is
synonymous with designated accrediting authority and delegated accrediting
authority.

Developmental Test and Evaluation. Developmental test and evaluation is any
engineering type of test used to verify the status of technical progress, verify that
design risks are minimized, substantiate achievement of contract technical
performance, and certify readiness for initial operational testing. Generally, those
tests are instrumented and measured by engineers, technicians, or soldier
operator-maintainer test personnel in a controlled environment to facilitate failure
analysis.

DoD Information Technology Registry. The DoD Information Technology
Registry is the repository for accurate and current information about the DoD
mission-critical and mission-essential information technology systems. The
Military Department Chief Information Officers plan to add all non-mission-
critical and non-mission-essential information technology systems to the Registry
by September 30, 2006.

DoD Information System. A DoD information system is a set of information
resources organized for the collection, storage, processing, maintenance, use,
sharing, dissemination, disposition, display, or transmission of information. The
DoD information system includes automated information system applications,
enclaves, outsourced information technology-based processes, and platform
information technology connections.

DoD Information Technology Security Certification and Accreditation
Process (DITSCAP). The DITSCAP is the standard DoD process for identifying
information security requirements, providing security solutions, and managing
information system security activities.

Global Information Grid. The Global Information Grid provides the foundation
for net-centric warfare, information superiority, decision superiority, and
ultimately, full spectrum dominance. The GIG includes any system, equipment
software, or service that transmits information to, receives information from,
routes information among or interchanges information among other equipment,
software, and services. Non-GIG information technology is stand-alone, self-
contained, or embedded information technology that is not and will not be
connected to the enterprise network.

Global Information Grid Key Interface Profile. A Global Information Grid
key interface profile provides a net-centric approach for managing
interoperability across the GIG based on the configuration control of key
interfaces.

Information Assurance. Information assurance is measures that protect and
defend the information and information systems by ensuring their availability,
integrity, confidentiality, authentication, and nonrepudiation. Information



                                     26
assurance provides for the restoration of information systems by incorporating
protection, detection, and reaction capabilities.

Information Exchange Requirements. Information exchange requirements
characterize the information exchanges to be performed by a proposed system and
identify who exchanges what information with whom, why the information is
necessary, and how the users will employ that information.

Information Technology. Information technology is the hardware, firmware,
and software used as part of the information system to perform DoD information
functions. Information technology includes computers, telecommunications,
automated information systems, automatic data processing equipment, and any
assembly of computer hardware, software, and firmware configured to collect,
create, communicate, compute, disseminate, process, store, and control data or
information.

Interoperability. Interoperability is the ability of systems, units, or forces to
provide services to or accept services from other systems, units, or forces and to
use the services so exchanged to operate effectively together.

Interoperability Certification. Certification as it applies to interoperability is a
formal statement of adequacy provided by a responsible agency (usually Joint
Staff) attesting that a system has met its interoperability and supportability
requirements.

Joint Mission Area. A joint mission area is a functional group of joint tasks and
activities that share a common purpose and facilitate joint force operations.

Joint Operational Architecture. A joint operational architecture describes tasks
and activities, operational elements, and information flows required to accomplish
or support military operations; defines types of information exchanged, frequency
of exchange, which tasks and activities are supported by information exchanges,
and nature of information exchanges in detail sufficient to ascertain specific
interoperability requirements.

Joint Technical Architecture. The Joint Technical Architecture is a common set
of mandatory information technology standards, which are primarily interface
standards and guidelines to be used by all emerging systems and system upgrades,
including advanced concept technology demonstrations. The Joint Technical
Architecture can be used to establish a system’s technical architecture, and is
applicable to all C4I and automated information systems and the interfaces of
other key assets, such as weapon systems and sensors, with C4I systems.

Key Performance Parameters. Key performance parameters are a critical
subset of the performance parameters found in the ORD. Each key performance
parameter has a threshold and an objective value. Key performance parameters
represent those capabilities or characteristics so significant that failure to meet the
threshold value of performance can be cause for the concept or system selected to
be reevaluated or the program to be reassessed or terminated.




                                      27
        National Security System. A national security system is any telecommunication
        or information system operated by the U.S. Government, whose function,
        operation, or use involves intelligence activities, cryptologic activities related to
        national security, command and control of military forces, equipment that is an
        integral part of a weapon system, or is critical to the direct fulfillment of military
        or intelligence missions.

        Network-Centric Warfare. Network-centric warfare25 allows a warfighting
        force to achieve improved information positions in the form of common
        operational pictures that provide the basis for shared situational awareness and
        knowledge, and a resulting increase in combat power.

        Net-Ready Key Performance Parameter (Net-Ready KPP). A net-ready KPP
        assesses information needs, information timeliness, information assurance, and
        net-enabled attributes required for information exchange and use. A net-ready
        KPP consists of measurable and testable characteristics, performance metrics, or
        both, required for the timely, accurate, and complete exchange and use of
        information to satisfy information needs for a given capability. The net-ready
        KPP comprises the following elements: compliance with the net-centric
        operations and warfare reference model, compliance with applicable GIG key
        interface profiles, verification of compliance with DoD information assurance
        requirements, and supporting integrated architecture products required to assess
        information exchange and use for a given capability. A net-ready KPP is
        documented in the following requirements documents: a capability development
        document, a capability production document, and a capstone requirements
        document.

        Non-Acquisition Category. Non-acquisition category systems are all defense
        information technology and national security system projects, pre-acquisition
        demonstration, joint experimentations, joint tests and evaluations, and
        non-DoD 5000 series information technology and NS system acquisitions and
        procurements.

        Objective. The objective is the performance value that is desired by the user and
        which the program manager is attempting to obtain. The objective represents an
        operationally meaningful, time critical, and cost-effective increment above the
        performance threshold for each program parameter.

        Operational Architecture View. The operational architecture view is a
        description of the tasks and activities, operational elements, and information
        flows required to accomplish or support a military operation.




25
 An in-depth discussion of network-centric warfare is provided in the book, Network Centric Warfare:
 Developing and Leveraging Information Superiority, 2nd Edition (Revised), by David S. Alberts, John J.
 Garstka, and Frederick P. Stein, C4I Surveillance and Reconnaissance Cooperative Research Program,
 August 1999.


                                                   28
Operational Effectiveness. Operational effectiveness is the overall degree of
mission accomplishment of a system when representative personnel use the
system in the environment planned or expected for operational employment of the
system, considering organization, doctrine, tactics, survivability, vulnerability,
and threat.

Operational Requirements Document. The operational requirements document
states the user’s objectives and minimum acceptable requirements for the
operational performance of a proposed concept or system.

Operational Test and Evaluation. Operational test and evaluation is field
testing, under realistic conditions, of any item or component of weapons,
equipment, or munitions to determine their effectiveness and suitability for use in
combat by typical military users and the evaluation of the results of such tests.

Penetration Testing. Penetration testing assesses a system’s ability to withstand
intentional attempts to circumvent system security features by exploiting
technical security vulnerabilities. Penetration testing may include insider and
outsider penetration attempts based on common vulnerabilities for the technology
being used.

Program. A program is a weapon system acquisition funded by research,
development, test and evaluation or procurement appropriations, or both, with the
express objective of providing a new or improved capability in response to a
stated mission need or deficiency.

Program Manager. Program manager refers to the acquisition program manager
during the system acquisition, the system manager during the operation of the
system, or the maintenance organization’s program manager when a system is
undergoing a major change.

System. A system is the organization of hardware, software, materiel, facilities,
personnel, data, and services needed to perform a designated function with
specified results, such as the gathering of specified data, its processing, and
delivery to users.

System Evaluation Plan. The system evaluation plan documents the integrated
test and evaluation strategy, which the testers and evaluators use throughout the
system acquisition life cycle. The system evaluation plan:

       •   addresses system critical operational issues and criteria, critical
           technical parameters, and additional evaluation focus areas;

       •   identifies data needs and sources, and the approach to be used to
           evaluate the system;

       •   specifies the analytical plan; and

       •   identifies program constraints.




                                     29
The system evaluation plan details the evaluator’s planned actions for the
evaluation of the system and is prepared and updated by the system evaluator.

System Security Authorization Agreement. The system security authorization
agreement is a formal agreement among the designated approving authority, the
certification authority, the information technology system user representative, and
the program manager. The agreement is used throughout the entire DITSCAP to
guide actions, document decisions, specify information technology security
requirements, document certification tailoring and level-of-effort, identify
potential solutions, and maintain operational systems security.

System Security Authorization Agreement Signatories. The system security
authorization agreement signatories include the information technology system
program manager, the designated approving authority, the certification authority,
and the user representative.

Technical Architecture View. A technical architecture view is a minimal set of
rules governing the arrangement, interaction, and interdependence of system parts
or elements, whose purpose is to ensure that a conformant system satisfies a
specified set of requirements.

Test and Evaluation Master Plan (TEMP). The TEMP documents the overall
structure and objectives of the test and evaluation program. It provides a
framework within which to generate detailed test and evaluation plans and it
documents schedule and resource implications associated with the test and
evaluation program. The TEMP identifies the necessary developmental test and
evaluation, operational test and evaluation, and live-fire test and evaluation
activities. Further, the TEMP relates program schedule, test management strategy
and structure, and required resources to critical operational issues, critical
technical parameters, objectives and thresholds documented in the operational
requirements document, evaluation criteria, and milestone decision points.

Threshold. Threshold is the minimum acceptable value that, in the user’s
judgment, is necessary to satisfy the need. If threshold values are not achieved,
program performance is seriously degraded, the program may be too costly, or the
program may no longer be timely.

User Representative. The user representative is the liaison for the user or the
user community, particularly during the initial development of a system. The user
representative is the individual or organization that represents the user community
in the specification, acquisition and maintenance of information technology
system. The user representative defines the system mission and functionality and
is responsible for ensuring that the user’s interests are maintained throughout
system development, modification, integration, acquisition, and deployment.

Vulnerability. Vulnerability is the characteristics of a system that cause it to
suffer a definite loss or reduction of capability to perform its designated mission
as a result of having been subjected to a certain level of effects in a man-made
hostile environment.




                                     30
Appendix D. Global Information Grid
           Global Information Grid. The GIG provides the foundation for network-centric
           warfare, information superiority, decision superiority, and ultimately full
           spectrum dominance as depicted in the figure below.




           Foundation for Achieving Full Spectrum Dominance26

           The concept of the GIG evolved from concerns about the interoperability and
           end-to-end integration of automated information systems. Issues such as
           streamlined management and improved information infrastructure investment also
           contributed to the heightened interest in a GIG. However, the real demand for a
           GIG originates from the requirement for information and decision superiority to
           achieve full spectrum dominance, as expressed in Joint Vision 2020. The ability
           to achieve shared situational awareness and knowledge among all elements of a
           joint force, including allied and coalition partners, is increasingly viewed as a
           cornerstone to transform future warfighting capabilities.

           Network-Centric Warfare. The GIG capstone requirements document states
           that network-centric warfare allows a warfighting force to achieve improved
           information positions in the form of common operational pictures that provide the
           basis for shared situational awareness and knowledge, and a resulting increase in
           combat power.

           Information Superiority. Information superiority is the capability to collect,
           process, and disseminate an uninterrupted flow of information while exploiting or
           denying an adversary’s ability to do the same. Information superiority is
           achieved in a noncombat situation or one in which there are no clearly defined
           adversaries when friendly forces have the information necessary to achieve
           operational objectives. Information superiority provides the joint force with a
           competitive advantage only when it is effectively translated into superior
26
     Figure obtained from the GIG Capstone Requirements Document, August 30, 2001.


                                                   31
knowledge and decisions. The joint force must be able to take advantage of
superior information converted to superior knowledge to achieve “decision
superiority.”

Decision Superiority. Decision superiority is to arrive at better decisions and
implement them faster than an opponent can react, or in a noncombat situation, at
a tempo that allows the force to shape the situation or react to changes and
accomplish its mission. Decision superiority does not automatically result from
information superiority. Organizational and doctrinal adaptation, relevant
training and experience, and the proper command and control mechanisms and
tools are equally necessary.

Full Spectrum Dominance. The transformation of the joint force to reach full
spectrum dominance rests upon information superiority as a key enabler and our
capacity for innovation. The label full spectrum dominance implies that U.S.
Forces are able to conduct prompt, sustained, and synchronized operations with
combinations of forces tailored to specific situations and with access to and
freedom to operate in all domains: space, sea, land, air, and information.
Additionally, given the global nature of our interests and obligations, the United
States must maintain its overseas presence forces and the ability to rapidly project
power worldwide in order to achieve full spectrum dominance.




                                     32
Appendix E. Results of the Air Force
            Interoperability and Information
            Assurance Survey
                                                                                    Number of
                                                                                     Program
                                                                                    Managers
         Survey Question                            Survey Answers                  Responded

1. What acquisition category is       a. Acquisition Category IAM or                     6
   your program?                           Acquisition Category IAC
                                      b. Acquisition Category ID or Acquisition         19
                                           Category IC
                                      c. Acquisition Category II                         1
                                      d. Acquisition Category III                       12
                                      e. Non-DoD Acquisition Process                     0
                                      f. Other                                           2
2. What type of system is your        a. NS system                                       7
   program? (Some program offices     b. Information technology system (that is          4
   had multiple responses)                 not an NS system)
                                      c. Weapon system                                  19
                                      d. Automated information system                    3
                                      e. None of the above                              10
3. What is the last milestone your    a. Pre-acquisition (for example, science           1
   program completed?                      and technology, concept development,
                                           demonstration)
                                      b. Milestone A (or 0)                              3
                                      c. Milestone B (or II or system                   14
                                           development and demonstration)
                                      d. Milestone C (or III or low-rate initial         6
                                           production)
                                      e. Beyond Milestone C (or full-rate                7
                                           production)
                                      f. Other                                           9
4. Which joint mission area does      a.   Dominant maneuver                            14
   your program support? Select       b.   Deployment redeployment                      19
   the appropriate answer based on    c.   Precision engagement                         20
   the Chairman of the Joint Chiefs   d.   Strategic deterrence                          8
   of Staff Memorandum                e.   Overseas presence and force projection       18
   (CM-1014-00), “Joint Mission       f.   Special operations                           15
   Areas to Organize the Joint        g.   Joint command and control                    18
   Operational Architectures.”        h.   Information superiority                      18
                                      i.   Focused logistics                             7
                                      j.   Full dimensional protection                   6
                                      k.   Multinational operations/                    12
                                             interagency coordination
                                      l.   Other                                         6




                                            33
                                                                                Number of
                                                                                 Program
                                                                                Managers
         Survey Question                          Survey Answers                Responded

5. For information technology or      a. Yes                                        30
   NS systems, the ORD must           b. No                                          8
   include interoperability           c. Unsure                                      2
   requirements, thus requiring an
   interoperability KPP. These
   systems must also have related
   elements of IA. In this respect,
   do you think IA is a
   subcomponent of
   interoperability?

6. Should IA requirements be tested   a. Yes                                        35
   in addition to interoperability    b. No                                          4
   requirements?                      c. Unsure                                      1

7. Has the Director for Command,      a. Yes                                        14
   Control, Communications, and       b. No, the ORD has not been through the        6
   Computers Systems Directorate           process yet.
   (J-6), Office of the Chairman of   c. No, the ORD went through the process        4
   the Joint Chiefs of Staff (Joint        but was not certified
   Staff J-6) certified your          d. In process                                  4
   program’s ORD for                  e. Unsure                                     12
   interoperability requirements?

8. Is your program part of the GIG    a. Yes                                        14
   asset inventory?                   b. No                                         16
                                      c. Unsure                                     10
9. How is your program compatible     a. Uses current Defense Information           19
   with the GIG? Select all that         Switched Network services
   apply.                             b. Uses approved allocated frequency          26
                                         plans
                                      c. Uses approved cryptology                   30
                                      d. Meets appropriate standards (for           27
                                         example, Defense Information
                                         Infrastructure Common Operating
                                         Environment compliance)
                                      e. None of the above                           0
                                      f. Other                                      11
                                      g. Unsure                                      1




                                           34
                                                                                     Number of
                                                                                      Program
                                                                                     Managers
        Survey Question                           Survey Answers                     Responded

10. Which Air Force oversight        a. Program executive officer/milestone              22
    entity(ies) or command(s)           decision authority
    assures that your Acquisition    b. Headquarters, Air Force Assistant Chief           2
    Category IAM, IAC, ID, or IC        of Staff, Systems for Command,
    operates with other Defense         Control, and Communications
    agency and Military Department   c. Headquarters, Air Force Deputy Chief              5
    acquisition programs as             of Staff, Air and Space Operations
    envisioned by the warfighter.    d. Assistant Secretary of the Air Force             13
                                        (Acquisition)
                                     e. Headquarters, Air Force Director of Test          9
                                        and Evaluation
                                     f. Assistant Secretary of Defense for                8
                                        Command, Control, Communications,
                                        and Intelligence
                                     g. Major Command and Field Operating                 8
                                        Agencies
                                     h. Joint Staff J-6                                   8
                                     i. Director for Operational Plans and                0
                                        Interoperability Directorate (J-7), Office
                                        of the Chairman of the Joint Chiefs of
                                        Staff
                                     j. U.S. Joint Forces Command (J-6)                   3
                                     k. Director, Operational Test and                   13
                                        Evaluation
                                     l. Other                                            18

11. Which Air Force oversight        a. Program executive officer/milestone               6
    entity(ies) or command(s)           decision authority
    assures that your Acquisition    b. Headquarters, Air Force Assistant Chief           0
    Category II or below program        of Staff, Systems for Command,
    operates with other Defense         Control, and Communications
    agency and Military Department   c. Headquarters, Air Force Deputy Chief              4
    acquisition programs as             of Staff, Air and Space Operations
    envisioned by the warfighter.    d. Assistant Secretary of the Air Force              6
                                        (Acquisition)
                                     e. Headquarters, Air Force Director of Test          1
                                        and Evaluation
                                     f. Major Command and Field Operating                 5
                                        Agencies
                                     g. Other                                            18




                                          35
                                                                            Number of
                                                                             Program
                                                                            Managers
         Survey Question                           Survey Answers           Responded

12. Of the following documentation    a.   ORD                                  34
    normally provided to the          b.   Capstone requirements document       10
    milestone decision authority at   c.   C4I support plan                     21
    Milestone B, which documents      d.   TEMP                                 15
    fully describe interoperability   e.   Developmental test results            5
    requirements and strategies?      f.   Operational test results              5
    Select all that apply.            g.   System evaluation plan                2
                                      h.   Event design plan                     0
                                      i.   Operational architecture view        11
                                      j.   Systems architecture view            11
                                      k.   Technical architecture view           7
                                      l.   Security plans                        9
                                      m.   Other                                12
                                      n.   None                                  1

13. Of the following documentation    a.   ORD                                  29
    normally provided to the          b.   Capstone requirements document        9
    milestone decision authority at   c.   C4I support plan                     19
    Milestone C, which documents      d.   TEMP                                 20
    fully describe interoperability   e.   Developmental test results           10
    requirements and strategies?      f.   Operational test results             10
    Select all that apply.            g.   System evaluation plan                4
                                      h.   Event design plan                     0
                                      i.   Operational architecture view        14
                                      j.   Systems architecture view            14
                                      k.   Technical architecture view          11
                                      l.   Security plans                       11
                                      m.   Other                                16
                                      n.   None                                  1

14. Of the following documentation    a.   ORD                                  23
    normally provided to the          b.   Capstone requirements document        5
    milestone decision authority at   c.   C4I support plan                     16
    Milestone B, which documents      d.   TEMP                                 15
    fully describe IA requirements    e.   SSAA                                 20
    and strategies? Select all that   f.   Developmental test results            6
    apply.                            g.   Operational test results              5
                                      h.   System evaluation plan                2
                                      i.   Event design plan                     0
                                      j.   Operational architecture view         4
                                      k.   Systems architecture view             5
                                      l.   Technical architecture view           3
                                      m.   Security plans                       16
                                      n.   Other                                 9
                                      o.   None                                  4




                                            36
                                                                               Number of
                                                                                Program
                                                                               Managers
         Survey Question                                Survey Answers         Responded

15. Of the following documentation       a.   ORD                                  25
    normally provided to the             b.   Capstone requirements document        6
    milestone decision authority at      c.   C4I support plan                     17
    Milestone C, which documents         d.   TEMP                                 13
    fully describe IA requirements       e.   SSAA                                  8
    and strategies? Select all that      f.   Developmental test results            7
    apply.                               g.   Operational test results              6
                                         h.   System evaluation plan                3
                                         i.   Event design plan                     0
                                         j.   Operational architecture view         9
                                         k.   Systems architecture view            10
                                         l.   Technical architecture view           7
                                         m.   Security plans                       18
                                         n.   Other                                10
                                         o.   None                                  4
16. The inclusion of IA requirements     a.   I agree                              22
    in an ORD would benefit from         b.   I disagree                            8
    the addition of high-level           c.   No opinion                            7
    information exchange                 d.   I am unsure                           3
    requirements. (See Chairman of
    the Joint Chiefs of Staff
    Instruction 3170.01B,
    “Requirements Generation
    System.”)

17. The ORD must define                  a.   I agree                              28
    information exchange                 b.   I disagree                            3
    requirements for information         c.   No opinion                            4
    technology and NS system             d.   I am unsure                           5
    acquisition programs.
18. IA should be a key performance       a.   I agree                              18
    parameter in my acquisition          b.   I disagree                           13
    program that must exchange data      c.   No opinion                            6
    external to the information          d.   I am unsure                           3
    technology system, NS system,
    or weapon system’s host
    platform.

19. My acquisition program will          a.   Public key infrastructure            10
    include the following IA security    b.   Firewalls                            23
    techniques or technologies           c.   Smart cards                           8
    before production. Select all that   d.   Passwords                            30
    apply.                               e.   Encryption/decryption                29
                                         f.   Physical security                    33
                                         g.   Frequency hopping                     9
                                         h.   Restoration of capability            20
                                         i.   None of the above                     1
                                         j.   Other                                13



                                               37
                                                                                           Number of
                                                                                            Program
                                                                                           Managers
         Survey Question                                 Survey Answers                    Responded

20. My acquisition program will           a.   Public key infrastructure                       12
    include the following IA security     b.   Firewalls                                       24
    techniques or technologies after      c.   Smart cards                                     13
    production. Select all that apply.    d.   Passwords                                       30
                                          e.   Encryption/decryption                           34
                                          f.   Physical security                               35
                                          g.   Frequency hopping                               12
                                          h.   Restoration of capability                       23
                                          i.   None of the above                                0
                                          j.   Other                                            9

21. List all IA products that are         The system program offices identified
    commercial-off-the-shelf              different commercial-off-the-shelf products.
    products related and/or               A list of the products identified is available
    integrated into your acquisition      upon request.
    program.

22. Are all the products listed in        a. Yes                                                9
    question 21 certified for IA by       b. No                                                14
    the National Security Agency?         c. Unsure                                            13

23. Do you plan to have all products      a. Yes                                               13
    listed in question 21 certified for   b. No                                                19
    IA by the National Security
    Agency? Answer if question 22
    was No. (Some program offices
    answered even if they had
    answered Yes to Question 22)
24. Do fluctuations in funding and        a. Yes                                               25
    prioritization impact system          b. No                                                13
    development as it relates to
    interoperability requirements?

25. Is your program in compliance         a. Yes                                               32
    with the Clinger-Cohen Act?           b. No                                                 7

26. Do you believe the GIG                a. Yes                                               21
    currently addresses all IA            b. No                                                13
    requirements?

27. Does the system program office        a. Yes                                               23
    have an interoperability              b. No                                                17
    specialist assigned to the
    program?
28. Does the system program office        a. Yes                                               27
    have an IA specialist assigned to     b. No                                                13
    the program?



                                                38
                                                                                         Number of
                                                                                          Program
                                                                                         Managers
         Survey Question                             Survey Answers                      Responded

29. Has a risk assessment been         a. Yes                                                25
    conducted on meeting the           b. No                                                 15
    program’s interoperability
    requirement?

30. Has a risk assessment been         a. Yes                                                23
    conducted on meeting the           b. No                                                 17
    program’s IA requirements?

31. Who is completing the              The system program offices identified
    DITSCAP testing (for all           different points of contact that are
    appropriate phases) for your       completing the DITSCAP testing. A list of
    program? Provide name of point     the points of contact identified is available
    of contact, organization, title,   upon request.
    telephone number, and email.

32. For the program’s System Threat    The system program offices identified
    Analysis Report (STAR), who        different entities that determined the IA
    determined the threat,             threat and validated that threat. A list of the
    specifically the IA threat, and    entities identified is available upon request.
    who validated that threat?




                                            39
Appendix F. Air Force Programs Surveyed
1.   Advanced Extremely High Frequency           20. Global Positioning System
2.   Advanced Remote Ground Unattended           21. Global Transportation Network-21
      Sensor
                                                 22. Information Warfare Planning
3.   Air Force Mission Support System                  Capability
4.   B-1B Conventional Mission Upgrade           23. Integrated Maintenance Data System
      Program
                                                 24. Joint Air-to-Surface Standoff Missile
5.   C-5 Avionics Modernization Program
                                                 25. Joint Direct Attack Munition (500,
6.   C-17 A/C-17A Upgrades                             1,000, and 2,000 pounds)
7.   C-130 Avionics Modernization                26. Joint Precision Approach and
      Program                                          Landing System
8.   C-130J All Variants                         27. Joint Primary Aircraft Training
                                                       System
9.   Combat Survivor Evader Locator
                                                 28. Joint Strike Fighter
10. Defense Meteorological Satellite
     Program                                     29. Joint Surveillance Target Attack
                                                       Radar System
11. Deliberate and Crisis Action Planning
     and Execution Segments                      30. MILSTAR Satellite Communication
                                                      System
12. Air Force-Distributed Common
     Ground System                               31. Mobile Approach Control System
13. E-3A Airborne Warning and Control            32. Multi-Platform - Common Data Link
     System
                                                 33. National Airspace System
14. F-22 Raptor (Engineering and
     Manufacturing Development and               34. National Polar-Orbiting Operational
     Squadrons)                                       Environment Satellite System

15. Global Broadcast Service                     35. P-5 Combat Training System

16. Global Combat Support System -               36. Predator Medium Altitude Endurance
     Air Force                                        Unmanned Aerial Vehicle

17. Aerospace Operations Center                  37. Space-Based Infrared System-High

18. Theater Battle Management Core               38. Theater Deployable Communications
     System                                      39. Time Critical Targeting Functionality
19. Global Hawk Unmanned Aerial                  40. Wideband Gapfiller Satellite
     Vehicle




                                            40
Appendix G. Audit Response to Air Force
            Comments on the Report
   Our detailed response to the comments from the Air Force Chief Information
   Officer on statements in the draft report follow. The complete text of those
   comments is in the Management Comments section of this report. The Air Force
   Chief Information Officer commented on the inclusion of the Clinger-Cohen Act;
   the applicability of information support plans; Air Force Instruction 33-202
   “Network and Computer Security” June 17, 2004, or Air Force
   Pamphlet 63-1701, “Program Protection Planning” March 27, 2003; Air Force
   Instruction 63-101, “Operation of the Capabilities Based Acquisition System,”
   April 2004; Air Force Asset Inventory; and Air Education and Training
   Command.

   Clinger-Cohen Act. The Air Force Chief Information Officer stated that the
   paragraphs on “Interoperability, Requirements and Certification Policy” and
   “DoD Policy” in finding A discuss DoD policy related to interoperability
   requirements and certification, but do not address the interoperability
   requirements that are discussed in Enclosure 4 of DoD Instruction 5000.2,
   “Operation of the Defense Acquisition System.” In Enclosure 4, program
   managers are provided statutory and regulatory requirements for interoperability
   as part of Clinger-Cohen Act compliance certification for mission-critical and
   mission-essential systems. It states that, at a minimum, the DoD Component
   Chief Information Officer’s confirmation or certification will include a written
   description of the three materiel questions of section 3.6.4 and requirements
   related to the Clinger-Cohen Act of 1996. The three materiel questions are:

          •   Do the acquisition support core/priority mission functions need to be
              performed by the Federal Government?

          •   Does the acquisition need to be undertaken by the DoD Component
              because no alternative private sector or governmental source can better
              support the function?

          •   Do the acquisition support work processes that have been simplified or
              otherwise redesigned reduce costs, improve effectiveness, and make
              maximum use of commercial off-the-shelf technology?

   The Air Force Chief Information Officer stated that a recommendation for
   updating DoD Instruction 5000.2 should be added to the report so that it requires
   all information-technology-related systems, including automated information
   systems connecting to the Global Information Grid, to meet the interoperability
   requirements in DoD Directive 4630.5, “Interoperability and Supportability of
   Information Technology (IT) and National Security Systems (NSS),” May 5,
   2004. Further, the Air Force Chief Information Officer stated that, if a system
   does not fall into the mission-critical or mission-essential system definition or if
   the system is an automated information system, program managers likely
   disregard the need for Clinger-Cohen Act compliance.



                                        41
        Audit Response. DoD Directive 5000.1, “The Defense Acquisition System,”
        May 12, 2003, does state that DoD policy for the information technology aspects
        of interoperability and supportability appears in DoD Directive 4630.5.

        Information Support Plan. The Air Force Chief Information Officer
        commented on the “C4I Support Plans, C4I Support Plan Policy” and “DoD
        Instruction” paragraphs in finding A. He stated that it appears that the DoD 5000
        series, and its direction on C4I support plans or information support plans, was
        not part of the audit. The Air Force Chief Information Officer suggested a
        recommendation be included in the report that DoD Instruction 5000.2 be updated
        to require a C4I support plan or information support plan for all information
        technology systems, including automated information systems connected to the
        Global Information Grid, rather than for only mission-critical and
        mission-essential systems.

        Audit Response. The Defense Acquisition Guidebook, December 2004,
        identifies Chairman of the Joint Chiefs of Staff Instruction 6212.01C
        “Interoperability and Supportability of Information Technology and National
        Security Systems,” November 20, 2003, as mandatory requirements for all
        acquisition programs, including information technology and NS systems.
        Chairman of the Joint Chiefs of Staff Instruction 6212.01C applies to all
        information technology and NS systems or services acquired, procured, or
        operated by any DoD Component. The information support plan requirement in
        Chairman of the Joint Chiefs of Staff Instruction 6212.01C applies to all
        acquisition category, non-acquisition category,27 and fielded programs regardless
        of approval authority, designation, increment, or block. The Instruction
        specifically states that the program authority for those programs will prepare an
        information support plan to document the information technology and NS systems
        needs, objectives, and interface requirements.

        Air Force Instruction and Pamphlet. The Air Force Chief Information Officer
        stated that the “Air Force Memorandum” paragraph in finding A discusses only
        an Assistant Secretary of the Air Force (Acquisition) memorandum on C4I
        support plans. He stated that the paragraph did not address direction contained in
        Air Force Instruction 33-202 or Air Force Pamphlet 63-1701. The Air Force
        Chief Information Officer recommended that those documents be reviewed to
        determine whether the audit results should be updated to include salient
        information from those documents in finding A.

        Audit Response. We reviewed Air Force Instruction 33-202 and determined that
        it does not contain additional requirements for the C4I support plan or the
        information support plan beyond the requirements of DoD Instruction 4630.8,
        which we cited in finding A. Requirements of the Instruction apply to finding B
        and are cited on pages 14 and 16 of the report. Air Force Pamphlet 63-1701
        addresses C4I certification and accreditation but does not address preparing a C4I
        support plan or information support plan.

27
  Chairman of the Joint Chiefs of Staff Instruction 6212.01C defines a non-acquisition category as all
 defense information technology and national security system projects, pre-acquisition demonstration,
 joint experimentations, joint tests and evaluations, and non-DoD 5000 series information technology and
 NS system acquisitions and procurements.


                                                  42
Air Force Instruction 63-101. The Air Force Chief Information Officer stated
that although Air Force Pamphlet 63-1701 makes information technology system
certification and accreditation a part of the program managers’ program
protection planning responsibilities, Air Force Instruction 63-101 does not
include those information technology security and certification requirements. The
Air Force Chief Information Officer suggested an additional recommendation be
included in finding A to update Air Force Instruction 63-101 to include the
requirements for interoperability and information support plans for all information
technology systems, including automated information systems connected to the
Global Information Grid.

Audit Response. Air Force Instruction 63-101 is interim Air Force guidance that
program managers should use in conjunction with Air Force Instruction 10-601,
“Capabilities Based Requirements Development,” July 30, 2004. Air Force
Instruction 10-601 implements the requirements of Chairman of the Joint Chiefs
of Staff Instruction 6212.01C. Air Force Instruction 10-601 states that program
authorities should use information support plans to document the information
technology and NS system needs; objectives; and interface requirements for all
acquisition category, non-acquisition category, and fielded programs.

Air Force Asset Inventory. The Air Force Chief Information Officer stated that
the Air Force uses the Air Force Enterprise Information Technology Data
Repository (formerly called the Systems Compliance Database) as its asset
inventory. The Air Force Enterprise Information Technology Data Repository
feeds into the DoD Information Technology Registry. Further, he stated that
pending additional guidance, the Air Force will continue to populate the DoD
Information Technology Registry.

Audit Response. Because DoD has not defined the content of the Global
Information Grid asset inventory, the Air Force is not able to populate and
maintain a Global Information Grid asset inventory for Air Force systems, as
stated in the report. Although the Enterprise Information Technology Data
Repository feeds into the DoD Information Technology Registry, the Principal
Director to the Deputy DoD Chief Information Officer stated that the DoD
Information Technology Registry is not adequate to use as the GIG asset
inventory. However, the Principal Director stated that DoD may develop the
DoD Information Technology Registry into the GIG asset inventory. We updated
the report to reflect the Air Force asset inventory efforts.

Air Education and Training Command. The Air Force Chief Information
Officer recommended changing “Air Force Training and Doctrine Command” to
“Air Education and Training Command.”

Audit Response. Neither command was mentioned in the report.




                                    43
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
   Information Officer
Director, Program Analysis and Evaluation
Director, Operational Test and Evaluation

Joint Staff
Director, Joint Staff
   Director for Command, Control, Communications, and Computers Systems
      Directorate (J-6)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Force Air Combat Command
   Commander, Air Intelligence Agency
      Commander, Air Force Information Warfare Center
Commander, Air Force Air Mobility Command
Commander, Air Force Space Command
Assistant Secretary of the Air Force (Acquisition)
   Deputy Assistant Secretary of the Air Force (Management Policy and Program
      Integration)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Air Force Deputy Chief of Staff for Air and Space Operations
   Director, Operational Capabilities Requirements Directorate
Air Force Deputy Chief of Staff for Warfighting Integration
   Director, Command, Control, Communications, and Computers, Intelligence,
      Surveillance, and Reconnaissance Infostructure Directorate
Auditor General, Department of the Air Force
Air Force Chief Information Officer
Commander, Air Force Operational Test and Evaluation Center
Director, Air Force Test and Evaluation Directorate
Commander, Air Force Communications Agency




                                          44
Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Information Systems Agency
   Commander, Joint Interoperability Test Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        45
Joint Staff Comments




    Reply ZLP Code:                                                 W S M 0024-05
    203 18-0300                                                     0 8 January 2005


    MEMORANDUM FOR THE MSPECMR GENERAL, DEPARTMENT OF
                           DEFENSE




    1. Thank you For the opportunity to review the subject report.' The Joint S t d l
    concurs in the draft report recommendations -d will support them through
    participation as a principal member on the Interoperability T e s t Panel.

    2. The Joint S t a a point of c o n t a c t is Commander Charles Marre 11, USN;
    J-6k 703-697-4232.


                                            **-
                                            NORTON A SCHWARTZ
                                            Lieutenant General. USAF
                                            Director, Joint St&
Department of the Air Force Comments



                                    DEPARTMENT OF THE AIR FORCE
                                      OFFICE OF WE UMER S E E T U P I
                                                WASHINQTOW DC



   CHIEF INFORMATIONOFUCER
                                                                                    JAN 0 s 10I6

         MEMORANDUM FORDEPUTY N S P W O R G E h W FOR AUDlllNG
                    OFFICE OFTHE INSPECTOR GENERAL DEPARlMEW OP DEFENSE




               We have m i m e d the maA         md concur with ibl rsommcodation for thc (bid
         loformaoOsOmcer UI ". .impolicy to rtquimpmpnm m m g n Co pnparc informhon
         w n plans d oobuin rupportpbillty c s r i h I i o n Lxfmpmgram dsision mi- and before
         fieldhthc s-..    .."This i s m will ba addrrssed in Air Force Poliev h i v e 33.2.


                 we     CO~SU   ~ the m m d a t l o n thu thc m e f m m u i o n omcer".. verify
                              aith
         thst Air Fmes system p
                              m m a& p p m d system x o d y a!~tbonratioo,-~
         (SSAAsl Mae milatrme detision mints..." This iafmmatimn eollcctcd m the An F m c
         &mp&       I d d o n ~ c o l m o l o w ~ a Repository
                                                    ta         (errr,R) Pllltha, A P - C I O p m m d ~YNI
         vaiQthc c x i m of SSAA ss part of the Mlmation Ammace Smtegynviwpm-.
___________________________________________________________________



                                                                      Final Report
                                                                       Reference




                                                                      Page 4




                                                                      Page 5



                                                                      Page 6




                             49
               ___________________________________________________________________



Final Report
 Reference




Page 8




Page 17




Not
Addressed




                                            50
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Technology Management prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

John E. Meling
Jack D. Snider
Suellen R. Brittingham
Alice F. Carey
Neal J. Gause
Kevin W. Klein
Tracey E. Dismukes
Patricia A. Joyner
Lidet K. Negash
Tomasa Pack
Todd L. Kowalski
Christopher M. Scrabis
Zachary M. Williams
Deborah J. Thomas
Joyce Tseng
Julie B. Vaillancourt
Peter C. Johnson
Anh H. Tran
Lieutenant Colonel Shurman L. Vines, USA
Ernest G. Fine
Cindy L. Gladden
Jacqueline N. Pugh
